No:
IN THE SUPREME COURT OF THE UNITED STATES
ANDRE MARTEL WINN,

Petitioner,
V.
UNITED STATES OF AMERICA,

Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner Andre Martel Winn, through undersigned counsel and pursuant to
Sup. Ct. R. 29.2 and 28 U.S.C. ยง 1746, declares that the Petition for Writ of
Certiorari filed in the above-styled matter was sent in an envelope via third-party
commercial carrier for delivery within three days, addressed to the Clerk of the
Supreme Court of the United States, on the

lEth day of December, 2020, which is

timely pursuant to the rules of this Court.

Dated: December 1g, 2020

EN
Fe de a

KALAR
Defender

PAT] REICH
TH*
JO
sistant F deral Pu ic Defender
Counsel sf Record
ay Stre , Suite 1350N
94612
Oa
(510) 637-3500
john_reichmuth@fd.org

